U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Electronic Privacy Information Center v. Department of Commerce, et al,
S.Ct. No. 19-777

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
16, 2019, and placed on the docket on December 18, 2019. The government's response is due on
January 17, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 18, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0777
ELECTRONIC PRIVACY INFORMATION CENTER
DEPARTMENT OF COMMERCE, ET AL.

MARC ROTENBERG
ELECTRONIC PRIVACY INFORMATION
CENTER (EPIC)
1519 NEW HAMPSHIRE AVENUE NW
WASHINGTON, DC 20036
202-483-1140
ROTENBERG@EPIC.ORG.

